TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Report on Audit of Billing System



                                         September 2005

                             Reference Number: 2005-1C-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 15, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Billing System (Audit # 20051C0226)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s billing system as of
 August 31, 2004, to assure that the billing system and related internal controls comply with
 applicable laws and regulations, are effective over compliance, and are adequate and operating
 effectively. Test procedures were applied from May 18, 2004, through August 31, 2004.
 The DCAA opined that the contractor’s billing system and related internal controls and
 procedures are adequate. The DCAA examined only the billing system. Accordingly, the
 DCAA expresses no opinion on the contractor’s internal controls taken as a whole.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
 If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
 (202) 927-7077.


 Attachment
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
